No. 19-

In The

Supreme Court of tfje fHniteb States!
In re TCT Mobile International Limited,
Petitioner.
On Petition for Writ of Mandamus or,
in the Alternative, Writ of Certiorari
to the United States Court of Appeals
for the Federal Circuit

PETITION FOR WRIT OF MANDAMUS OR, IN
THE ALTERNATIVE, WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,618 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on January 15, 2020.

Colin CaseyvHogan
Wilson-Epes Printing Co., Inc.

